<html>
<title> - THE DALAI LAMA: WHAT HE MEANS FOR TIBETANS TODAY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
            THE DALAI LAMA: WHAT HE MEANS FOR TIBETANS TODAY

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
70-941                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdccbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a>  


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

To Be Appointed

                                     SHERROD BROWN, Ohio, Cochairman
                                     MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho


                     EXECUTIVE BRANCH COMMISSIONERS

                 SETH DAVID HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

            Lawrence Liu, Acting Staff Director (Cochairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Hon. Sherrod Brown, a U.S. Senator from 
  Ohio; Cochairman, Congressional-Executive Commission on China..     1
Walz, Hon. Tim, a U.S. Representative from Minnesota.............     3
Tsering, Bhuchung K., Vice President, International Campaign for 
  Tibet..........................................................     4
Otero, Maria, Under Secretary for Democracy and Global Affairs 
  and Special Coordinator for Tibetan Issues, U.S. Department of 
  State, Member, Congressional-Executive Commission on China.....     8
Arjia Rinpoche, Director, Tibetan Mongolian Buddhist Cultural 
  Center.........................................................    10
Germano, David, Professor, Department of Religious Studies, 
  University of Virginia.........................................    11
Sangdrol, Ngawang, Former Tibetan Political Prisoner.............    12

                                APPENDIX
                          Prepared Statements

Tsering, Bhuchung K..............................................    22
Sangdrol, Ngawang................................................    23

Brown, Hon. Sherrod..............................................    23
Otero, Maria.....................................................    24


            THE DALAI LAMA: WHAT HE MEANS FOR TIBETANS TODAY

                              ----------                              


                        WEDNESDAY, JULY 13, 2011

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 9:52 
a.m., in Room 418, Russell Senate Office Building, Hon. Sherrod 
Brown, Cochairman, presiding.
    Also present: Representative Tim Walz and Under Secretary 
of State and Special Coordinator for Tibetan Issues Maria 
Otero.

 OPENING STATEMENT OF HON. SHERROD BROWN, A U.S. SENATOR FROM 
 OHIO; COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Senator Brown.  The Commission will come to order. Thank 
you for joining us. A special thanks to the witnesses and 
people in the audience. Special thanks to Congressman Tim Walz 
for joining us. He has been a member of this Commission--
initially appointed to this Commission in 2007. Unfortunately, 
he is not a member now, but today we treat him as if he were 
one in terms of a statement and questions he would like to ask.
    Unfortunately, there are still a number of Commission 
vacancies. I hope they will be filled soon. The House has not 
yet appointed Republican or Democratic members. And I know 
Congressman Walz is interested in rejoining this Commission. I 
am hopeful that he will and I am hopeful that the vacancies, 
both by Senate Republicans and by House members in both 
parties, will move forward.
    Today's roundtable, the second one in a couple of weeks, is 
on the Dalai Lama, what he means for Tibetans today. In many 
ways, this roundtable can mean what he means for all of us who 
care about basic human rights for everyone.
    Thousands of people gathered in Washington this past week 
to hear His Holiness the Dalai Lama, perform a sacred ritual 
and share his teachings on world peace. The world knows His 
Holiness as a Nobel Peace Prize winner, a symbol of compassion, 
a guardian of the Tibetan people.
    Since the 1950s, he has made peaceful overtures to the 
Chinese Government. As a result, as we know, he was forced into 
exile into the Indian Himalayas.
    The President met with the Dalai Lama last time and I hope 
he will meet with him again this time. For decades, the Dalai 
Lama led Tibet's peaceful campaign for legitimate Tibetan 
political and cultural rights through prayer and speech, 
traveling across the world, even as foreign governments worried 
about Chinese reprisal for welcoming their so-called 
``separatist.''
    But in recent months, he has reduced his political role so 
he can focus on spiritual matters. Regardless of his personal 
role, His Holiness the Dalai Lama, remains the best hope for 
restoring stability to Tibet and guaranteeing the genuine 
autonomy that is the right of Tibetans, and the genuine 
autonomy that is the right of other ethnic minority groups in 
China.
    Tibetans in China continue to suffer from human rights 
abuses and restrictions on their constitutional and universal 
rights, to their freedom of religion, expression, and 
association. These abuses are deliberate acts of the Chinese 
state.
    The attack on Tibetan language, on Tibetan culture, on 
religion, and its rich history is intentional and political. It 
is harsh and it is brutal. Just as they have done with the 
Uyghur people, the Chinese Government has attacked every aspect 
of life and culture of Tibetans. And just as they have done 
with the leading critics of government policies, like Rebiya 
Kadeer, the government has done everything it can to discredit 
and subvert the Dalai Lama.
    Last month's Commission roundtable heard from Chinese legal 
experts who discussed how the Communist Chinese Government sees 
lawyers as a threat to the stability of the regime. The 
roundtable briefly touched on how, in the United States and 
other democratic nations, lawyers are, in many ways, the 
foundation of the stability of the state.
    In repressing defenders of rights, China suppresses a 
diversity of cultures. The Beijing government treats legitimate 
expression of cultural diversity as a threat to sovereignty.
    In the United States, our very motto is ``E. Pluribus 
Unum,'' out of many, there is one--that our strength as one 
nation comes from the diversity of its people. Yet, respect and 
recognition of fundamental rights are essential for the 
preservation and celebration of China's minority cultures.
    The situation in Tibet remains abysmal since the Chinese 
Government's violent crackdown on largely peaceful protests 
that began some three years ago. According to the Commission's 
own political prisoner database, hundreds of political 
prisoners remain imprisoned.
    Far from seeing the Dalai Lama as an indispensible 
negotiating partner, Chinese officials continue their attempts 
to discredit him. Negotiations have stalled, with the longest 
break since formal dialogue resumed in 2002.
    At this critical moment, we have gathered an expert group 
of panelists to discuss what the Dalai Lama means to Tibetans 
and to our world; what impact might the Dalai Lama's reduced 
political role have on negotiations; what role will the Dalai 
Lama play in Tibetan future; what is the future of Tibetan 
culture.
    At this point, I will call on Congressman Walz. And then 
Mr. Tsering will go first and will take questions, because he 
has to leave, I understand. Congressman Walz, welcome.
    [The prepared statement of Senator Brown appears in the 
appendix.]

    STATEMENT OF HON. TIM WALZ, A U.S. REPRESENTATIVE FROM 
                           MINNESOTA

    Representative Walz. Well, thank you, Senator Brown, for 
this opportunity to be here at this important roundtable 
discussion. More importantly, thank you for your leadership on 
this important topic. We are very grateful.
    I would like to say a thank you, also, to this talented 
staff on the Commission, fabulous work that you do and very 
proud to be a part of it.
    I had the opportunity in May, in Minneapolis, to meet with 
His Holiness as he was there with our Tibetan community and 
provided several days of very heartfelt outreach amongst the 
community there. It was interesting that that meeting came just 
several weeks after I had had the opportunity to travel with 
one of my colleagues, John Lewis, down to Birmingham, Alabama 
to commemorate the civil rights movement down in Birmingham.
    And as we were there, it reminded me of the connection that 
we all have on human and civil rights, the letter from the 
Birmingham jail. An oppressed people cannot remain oppressed 
forever. Their yearning for freedom eventually manifests 
itself. And feeling that connection and watching that struggle 
that manifested itself here and those leaders who took us to a 
new level, who brought that sense of humanity to all of us.
    So I think today in holding this hearing, the connection 
between Dr. King and His Holiness is very keen. It's very much 
in the forefront, and it's something that we keep in mind.
    So I am hopeful that our Chinese friends understand that 
connection, understand why this is a very deeply seeded belief 
for many of us in this country, and see that connection and 
work that peaceful recognition so that the Tibetan people can 
live in peace and freedom, as we so much hoped for here in this 
country and continue to struggle daily for.
    So I thank you all. I am very interested in listening to 
our experts and folks who understand this situation as we move 
forward.
    And I thank you, Senator Brown, again, for the opportunity. 
I yield back.
    Senator Brown. Thank you, Congressman Walz.
    Bhuchung Tsering is Vice President of the International 
Campaign for Tibet. He has traveled as a senior aide with the 
Dalai Lama's envoys to all of the rounds of formal dialogue 
with Communist Party officials since the dialogue began almost 
nine years ago.
    We are grateful that Bhuchung has taken time out of his 
busy schedule to be here, and I understand he can be with us 
only a short time.
    So I am asking you to speak first, then a couple of 
questions, if the other three panelists don't mind, and then we 
will hear from the other three, with questions.
    So please proceed.

STATEMENT OF BHUCHUNG K. TSERING, VICE PRESIDENT, INTERNATIONAL 
                       CAMPAIGN FOR TIBET

    Mr. Tsering. Thank you, Mr. Chairman, and thank you, 
Congressman Walz, for coming here.
    The CECC has taken a positive step by organizing this 
roundtable discussion at this point of time. This is yet 
another indication of the U.S. Congress' interest in and 
support for the Tibetan people, and I thank you for that.
    I would like to touch on today's topic by looking at what 
the devolution of the Dalai Lama's political authority to the 
Tibetan elected leadership means to Tibet and to the Tibetan 
people.
    First, I would like to mention why the Dalai Lama devolved 
his authority; second, I would like to touch on what the impact 
is for the Tibetan people; third, what the impact is to China 
and the Chinese people; and, last, what, if any, is the impact 
to the international community.
    First of all, I think there are three reasons why the Dalai 
Lama chose to devolve his authority. First is his long-held 
belief in the democratic process and the principles of 
democracy, and, therefore, he has found the situation ripe to 
hand over authority to the directly elected leadership of the 
Tibetan people.
    Second, by devolving his authority, His Holiness is also 
using his foresight in planning for the long-term future of the 
Tibetan struggle, in case it doesn't get resolved in the 
foreseeable future. This is because he has always believed very 
strongly that the issue of Tibet is not the issue of the Dalai 
Lama, but of the six million Tibetan people and he wants it to 
be seen as such in a very concrete way.
    Third, His Holiness has personally believed that in this 
world, religion and politics should be separate, and he has 
long held the view that while politicians and those who rule 
countries should have religious principles, including moral 
ethics, et cetera, religion itself should not have any 
involvement in politics.
    Therefore, His Holiness has, as recent as during his visit 
here, spoken publicly saying that while he tells others to 
separate religion from politics, his continuing to combine 
these two in his position as the political and religious leader 
is, in his word, hypocritical. Therefore, he has said that he 
has taken these steps.
    So these are the three reasons why he has devolved his 
authority.
    Now, in terms of its implications to the Tibetan people, 
first of all, there is this historical bond between the Dalai 
Lamas and the Tibetan people, right from the first Dalai Lama, 
and from the fifth Dalai Lama, who assumed both the temporal 
and the spiritual leadership of the Tibetan people. That 
historical bond will not undergo any changes, irrespective of 
the changes that have taken place recently. It will continue, 
as was most obviously shown during 2008 when there were 
demonstrations all across the Tibetan Plateau. One of the 
voices that we heard then was the Tibetan people's reference to 
His Holiness. That will continue even now and in the future.
    But what the devolution of authority will impact is the 
immediate administration of the Tibetans in exile and the 
Tibetan movement in exile. The directly elected leadership of 
the Tibetan people, particularly the new Kalon Tripa, the 
Chairman of the Tibetan cabinet, will have more responsibility 
to see how he interacts with the Tibetan people and the outside 
world.
    So on the positive, this new Kalon Tripa will have more 
power and responsibilities, but, also, given that now he will 
be the last word in terms of the Tibetan political leadership, 
the challenge will be on him, on how he handles issues like the 
dialogue process with the Chinese leadership, as well as how he 
handles his role as the political leader, which is something 
new to the Tibetan people.
    So he has to show his decisiveness. He has to see that he 
doesn't continue to pass on responsibilities to the Dalai Lama 
or he doesn't show that he has to depend on the Dalai Lama for 
his political responsibilities. That is something challenging.
    Then in terms of challenge to the Chinese people, the 
Chinese say, and continue to hold, that the dialogue process is 
on the future of the Dalai Lama, with the personal 
representatives of the Dalai Lama. Now, since the Dalai Lama 
has transferred authorities to the political leadership, it is 
a challenge to them to see how China will handle this new 
situation.
    I'm sorry. My time is up. Thank you.
    [The prepared statement of Mr. Tsering appears in the 
appendix.]
    Senator Brown.  Thank you very much, Bhuchung.
    Welcome, Under Secretary of State and Special Coordinator 
for Tibetan Issues, Maria Otero, who is joining us. Bhuchung 
has to leave. So he is going first. Then you may make a 
statement after the conclusion of our questions with him, if 
that is okay with you.
    Ms. Otero. Certainly.
    Senator Brown.  Bhuchung, talk to us about your thoughts 
about the initial the Chinese Communist Party's reaction to His 
Holiness separating himself from the spiritual and the 
political side of his mission, if you will, and give us some 
details about how that will impact negotiations with the 
Chinese Communists.
    Mr. Tsering.  Initially, when His Holiness announced his 
decision, the Chinese authorities were caught unprepared, I 
would say. Even now they are quite unprepared as to how to 
respond to his decision.
    First, they thought that it was a gimmick and they, in 
fact, said that it was just a gimmick by His Holiness, and that 
nothing really would come out of it.
    When he really implemented it in early this year--when the 
Tibetans went to the polls and, thereafter, the Parliament 
amended the Charter devolving authorities--the Chinese 
authorities did not really have anything to say, other than 
saying that they have never recognized the Tibetan government-
in-exile and they will not do that, and that is what they say.
    But I think the main reason why the Chinese are caught 
unprepared to respond in a positive manner is because to them, 
holding onto power is the end. The Dalai Lama's devolution of 
his authority, which is not given to him in this lifetime, but 
from Tibetan belief, from the first Dalai Lama--which goes back 
more than 600--I think around 600 years, is something that they 
cannot imagine, somebody giving up power voluntarily, happily, 
as His Holiness is.
    Second, it thwarted the Chinese plans, because the Chinese 
had plans to use what they see as the next Dalai Lama for their 
political control of the Tibetan people. Now that this Dalai 
Lama says he is devolving authority, not of his own authority 
in this lifetime, but of all future Dalai Lamas, the Chinese do 
not really know what to do.
    So this is something they are caught up with.
    Senator Brown.  So, Bhuchung, do you expect the succeeding 
Dalai Lamas to sort of eschew a political role and focus only 
on the spiritual or do you expect each Dalai Lama to sort of 
start anew in that way?
    Mr. Tsering. No. I think this Dalai Lama has been very 
categorical in saying that all roles of the Dalai Lama, the 
institution of the Dalai Lama, which we call Gaden Phodrang, 
will be separated from the politics of Tibet. Therefore, all 
future Dalai Lamas will not have any political role.
    This present Dalai Lama has said that this doesn't mean 
that he will remain inactive. He says since the Tibetan people 
believe in him and have faith in him, he will continue to be 
there to guide them, but that he will also be there to promote 
his two commitments of promotion of human values and promotion 
of religious harmony.
    So he will continue to be active on these fronts.
    Senator Brown.  Bhuchung, thank you for whatever time you 
have left.
    Congressman Walz?
    Representative Walz.  Again, thank you for your work and 
your testimony.
    How do you perceive--how would the Chinese Government react 
now to the political leadership in the Tibetan authority as 
they move forward and as there is democratic succession and 
things like that? Will they engage at all with those officials 
or will they continue to take the stand that this is a ruse and 
that those elected officials hold no real sway?
    Mr. Tsering. Well, the current indication looks like the 
Chinese authorities either want the Tibetan side to believe 
that they do not want to deal with the elected leadership or 
they do not have the political courage to deal with the elected 
leadership.
    But if they are really concerned about the long-term future 
of the Tibetan people, stability on the Tibetan Plateau, and 
about the rights of the Tibetan people that are enshrined in 
the Chinese Constitution, there is no reason why the Chinese 
Government should not be engaging with the elected Tibetan 
leadership. After all, both sides say that they are working for 
the welfare of the Tibetan people.
    Today, the majority of the Tibetans live in Tibet and, 
therefore, the Chinese Government has the responsibility to see 
that the rights of the Tibetan people are respected, and I see 
the dialogue process as one way of addressing the rights of the 
Tibetan people.
    Representative Walz.  And building somewhat on the 
Senator's question. Do you believe that the Tibetan people 
clearly see that politically elected leadership as speaking for 
and acting in as their representatives.
    Mr. Tsering. They clearly do and, as I mentioned earlier, 
more recently, in 2008, Tibetans all over the Tibetan Plateau, 
not just in the Tibet Autonomous Region, but more so in areas 
outside of the Tibetan Autonomous Region, which are presently 
in Qinghai, Yunnan, and Sichuan Provinces. They have shown time 
and again, and as recent as last week or the week before, we 
have had people in these areas voicing their feelings for the 
Dalai Lama when his birthday was celebrated on July 6 and 
before that.
    So people continue to have faith in the Dalai Lama as a 
free spokesman of Tibet.
    Representative Walz. Good. Thank you again for your 
testimony.
    I yield back, Senator.
    Senator Brown.  Thank you, Congressman Walz.
    Ms. Otero, thank you for joining us.
    Ms. Otero.  Thank you very much.
    Permit me to ask, in line with what we are talking about 
right now, whether you think that the Dalai Lama's decision to 
step down from his formal governmental role in the Central 
Tibetan Administration will change in any way prospects for 
progress with the Chinese Government toward movement on the 
dialogue--will prospects improve or not improve? How do you 
envision this affecting efforts to continue and maintain a 
dialogue with China?
    Mr. Tsering.  This new development is certainly a 
challenge, both to the Tibetan side and to the Chinese 
Government. Therefore, it depends on how, for example, the new 
Kalon Tripa, Dr. Lobsang Sangay, deals with the issue in terms 
of the dialogue process.
    On the Chinese side, as I mentioned just now, whether they 
have the political courage to deal with the elected Tibetan 
leadership will be an indicator.
    But I see no reason why the Chinese Government should not 
deal with the Tibetan leadership, because after all, the 
Central Tibetan Administration, which the Kalon Tripa is 
heading, has a position that they are working for a solution 
for Tibet within the framework of the Chinese Constitution and 
they support the Middle Way Approach that His Holiness has 
propagated. And since both sides do have common ground for 
resolving the issue, it only is a matter of the Chinese 
leadership having political courage to do so.
    Ms. Otero.  Thank you.
    Senator Brown. Thank you, Ms. Otero.
    Bhuchung, thank you very much for joining us. And if you 
need to leave, that is fine. Thank you very much for being 
here.
    Mr. Tsering.  Thank you, Mr. Chairman. May I say how glad 
we are that Under Secretary Otero has been working for the 
Tibetan people--I can say that, I think--within the State 
Department after her appointment as the Special Coordinator on 
Tibetan Issues, and I thank the Administration for its 
continued support for Tibet.
    Senator Brown. Thank you. Thank you for saying that.
    Ms. Otero, would you like to make an opening statement now?

OPENING STATEMENT OF MARIA OTERO, UNDER SECRETARY FOR DEMOCRACY 
AND GLOBAL AFFAIRS, AND SPECIAL COORDINATOR FOR TIBETAN ISSUES, 
   U.S. DEPARTMENT OF STATE; MEMBER, CONGRESSIONAL-EXECUTIVE 
                      COMMISSION ON CHINA

    Ms. Otero. Yes. Thank you very much, Senator. And my thanks 
to all the Commission members, those that are here and not. I'm 
very glad that you have convened this roundtable and I'm very 
glad to be able to participate as a Commissioner.
    I have had the honor, as Special Coordinator for Tibetan 
Issues, of meeting several times with the Dalai Lama as an 
internationally recognized religious leader. I have also had 
the opportunity to speak with Tibetan Buddhists in remote 
settlements in India and with new arrivals and long-staying 
Tibetan refugees in Nepal.
    To young Tibetans, I have seen that the Dalai Lama is a 
positive example of how to make the world a better place and a 
source of wisdom and compassion in their personal lives.
    The Dalai Lama's views are widely respected within Tibetan 
society and command the respect of a wide variety of Tibetans.
    The U.S. Government believes that the Dalai Lama can be a 
constructive partner for China, particularly as it deals with 
the challenges of resolving continuing tensions in Tibetan 
areas. His consistent advocacy of nonviolence is an important 
factor in reaching an eventual lasting solution.
    China's engagement with the Dalai Lama, or his 
representatives, to resolve problems facing Tibetans is in the 
interests of the Chinese Government and the Tibetan people.
    We believe failure to address these problems and reexamine 
existing counterproductive policies will exacerbate already 
existing tensions that will, in turn, undermine China's efforts 
to maintain its current social and economic development.
    The Administration's goals on Tibetan issues are twofold. 
First, to promote a substantive, results-oriented dialogue 
between the Chinese Government and the Dalai Lama or his 
representatives, and, second, to sustain Tibet's unique 
religious, linguistic, and cultural heritage.
    The Administration, at all levels, from the President, 
Secretary, Assistant Secretaries, and myself, has urged the 
Chinese Government to engage in a dialogue with the 
representatives of the Dalai Lama.
    We remind the Chinese Government that the vast majority of 
Tibetans advocate nonviolent solutions to Tibetan issues and 
genuine autonomy--not independence, not sovereignty--in order 
to preserve Tibet's unique culture, religion, and its fragile 
environment.
    Regrettably, the Chinese Government has not engaged in a 
substantive dialogue with the Tibetans since January 2010.
    I want to take this opportunity to briefly mention some of 
our concerns and ongoing activities. We are extremely concerned 
about the deteriorating human rights situation in China and, in 
particular, in the Tibet Autonomous Region and other ethnic 
Tibetan areas in neighboring provinces.
    Recent regulations restricting Tibetan language education, 
strict controls over the practice of Tibetan Buddhism, and the 
arrests of prominent nonpolitical Tibetans, and the heavy 
security presence reflects the difficult human rights situation 
there today.
    The forcible removal of monks from Kirti Monastery is also 
a cause for deep concern.
    Despite many challenges, we are committed to continuing our 
longstanding support for nongovernmental organizations that 
work in ethnic Tibetan areas and assist Tibetan refugees in 
South Asia. Both the State Department and the U.S. Agency for 
International Development [USAID) support cultural and 
linguistic preservation, sustainable development, and 
environmental preservation in Tibet and Tibetan majority areas, 
as well as in Tibetan refugee communities in other countries. 
We do this through numerous programs.
    In addition, the State Department's Bureau of Population, 
Refugees and Migration continues its longstanding support for 
Tibetan refugees through ongoing support of nongovernment 
organizations, as well as the United Nations' High Commission 
on Refugees.
    In fiscal 2010, $3.5 million was provided to support 
reception services, education, health care, water, and 
sanitation for Tibetan refugees in South Asia, including new 
arrivals from China.
    At the end of this month, the USAID's India Mission will 
issue an award for a new $2 million, two-year program to 
support Tibetan settlements in India, Nepal, and Bhutan.
    The new program will support the development of organic 
agriculture for selected Tibetan settlements in India, Nepal, 
and Bhutan and provide training to Tibetan youth remaining in 
the settlements.
    USAID anticipates that the program will result in increased 
economic opportunities, which will encourage youth to remain in 
the settlements, strengthen community ties, and play a role in 
preserving their cultural and linguistic traditions. 
Strengthening the Tibetan communities and preserving their 
extraordinary cultural and religious traditions has been at the 
center of the Dalai Lama's work, as we know.
    The Dalai Lama celebrated his 76th birthday this last week 
in Washington, joined by thousands of Tibetans. While he is 
still vigorous and healthy and full of life, it is my great 
hope that Chinese leaders will seize this opportunity to pursue 
a substantive dialogue, to resolve remaining differences, and 
provide the next generation of Tibetans and Chinese with peace, 
prosperity, and genuine stability.
    [The prepared statement of Ms. Otero appears in the 
appendix.]
    Senator Brown.  Thank you, Ms. Otero.
    Ms. Otero. Thank you.
    Senator Brown. And thank you for your service.
    Bhuchung, thank you, again, very much for joining us. You 
certainly have our permission to leave, too. Thanks for the 
work you are doing and you are continuing to do.
    We will hear from the other three members of the panel. I 
have a vote scheduled around 10:30, a little bit after that I 
can leave. I will turn the chair over to Ms. Otero at that 
point.
    Congressman Walz, you can continue to join us, and thank 
you, again, for being here.
    We will hear next from Arjia Rinpoche. He is a high-ranking 
Tibetan Lama of Mongolian descent, who spent 16 years in a 
Chinese forced labor camp. Arjia Rinpoche fled China into exile 
in 1998. He is currently the Director of the Tibetan Mongolian 
Buddhist Cultural Center.
    Thank you for your courage and for joining us.
    Our next member of the panel that is here is Professor 
David Germano. Professor Germano teaches and researches Tibetan 
and Buddhist studies at the University of Virginia. He directs 
a library center at UVA to help foster scholarship and 
exchanges to further our understanding of Tibetan issues.
    Professor Germano, thank you for joining us.
    And our last panelist is Ms. Ngawang Sangdrol. Ms. Sangdrol 
spent 11 years as a political prisoner in Chinese prisons and 
had her sentence extended three times to a total of 20 years 
for behavior such as refusing to stand up when Communist Party 
officials entered her work area. She came to the United States 
in 2003 after her early release in 2002.
    Ms. Sangdrol, thank you for your courage and for your 
outspokenness.
    Behind Ms. Sangdrol is Phuntsog Nyidron, one of Ms. 
Sangdrol's former cellmates. She served more than 14 years in 
prison, the longest of any female Tibetan political prisoner 
since the 1980s.
    If we could recognize you, also. Thank you for being here.
    And I will start with the statement, please, by Arjia 
Rinpoche. Welcome.

   STATEMENT OF ARJIA RINPOCHE, DIRECTOR, TIBETAN MONGOLIAN 
                    BUDDHIST CULTURAL CENTER

    Arjia Rinpoche. Thank you so much, Chairman Brown, Ms. 
Otero, and Mr. Walz.
    For Tibetans, His Holiness the Dalai Lama and the Panchen 
Lama are very important. They are regarded as the sun and moon. 
Talking about His Holiness the Dalai Lama's reincarnation, I 
have full confidence that all will go fine because if we recall 
our history, 2,500 years ago, Buddha Shakyamuni established 
Buddhism in India and that set into motion the future 
reincarnations. However, it is also true that at that time, the 
Communists were not there.
    Then 600 years ago, the first reincarnation was born in the 
Tibetan Plateau. At that time, also, the Communists were not 
there.
    According to history, this is our own tradition, our 
religious discussion. However, for the selection of the 10th 
Panchen Lama, the Chinese Government had to take control and 
did this by holding a golden urn ceremony. I, myself, was 
there.
    On the one hand, they criticize and denounce the Buddhist 
tradition as feudalism. On the other hand, they used the 
authority of the Ming Chinese Emperor and the golden urn 
ceremony from another century and a different culture to backup 
their own selection.
    However, that doesn't work for the Tibetans. All Tibetans 
do not recognize the Chinese selection. Today, the Dalai Lama 
is very healthy and he can make his own decisions for his 
reincarnation. And, also, just recently, he made a very 
important decision--Bhuchung mentioned that--now religion and 
politics are separate. That is really convenient and a good 
thing for our reincarnation issue.
    So even though I think we need a lot of support from the 
whole world and especially from the U.S. Government, we hope 
that the Chinese Government makes careful deliberations and 
allows more freedom in the future. Then I think the Tibetan 
reincarnation of the Dalai Lama will be wonderful.
    Thank you.
    Senator Brown.  Thank you, Arjia Rinpoche.
    Professor Germano?

STATEMENT OF DAVID GERMANO, PROFESSOR, DEPARTMENT OF RELIGIOUS 
                STUDIES, UNIVERSITY OF VIRGINIA

    Mr. Germano. His Holiness the Dalai Lama, is renowned 
amongst all Tibetans, as the 14th embodiment of a saint, who, 
from the fifth incarnation, headed the most important polity on 
the Tibetan Plateau since the ninth century disintegration of 
the Tibetan empire.
    He is part of a line of incarnations accepted by Tibetans 
as being the most important Tibetans ever accepted as the 
emanation of Avalokitesvara, believed to be the fullest 
incarnation of compassion, the father, protector, and spiritual 
inspiration for the Tibetan people.
    But if we were to stop there, we will have understood 
little, indeed, for over the past five decades, the Dalai Lama 
has come to embody far more in the collective Tibetan heart and 
mind than a mere Buddhist deity, as omniscient and salvific as 
that deity might be.
    Tibetans find themselves at a crossroads as a people 
scattered across the vast Tibetan Plateau. Under pressure from 
the forces of dominant neighbors and globalization, they are 
unable to pursue their own agendas in spaces and times 
increasingly defined by external agents, domestically and 
internationally, limited in their ability to express their own 
distinctive worlds and constrained in agency on multiple 
fronts, economic, cultural, linguistic, political.
    They seek an uncharted path forward toward the possibility 
of continued vitality as a people, with their own languages, 
their spaces, their times, their agencies, their values.
    That one path involves two aspects; on the one hand, 
participation in regional and global economy, physical 
wellbeing, education, security, legal services, and other basic 
elements that should be provided by the government in an 
accountable, participatory, and transparent fashion; but, also, 
expression, representation, and agency on their own terms, a 
fully dimensional world where space, time, and values are 
inherently Tibetan, a world that protrudes out from the global 
and regional norms. They aspire to engage in their own self-
expression and agency in a world that is irreducibly Tibetan in 
character and, yet, which engages the other worlds that 
surround them, Chinese, American, Indian.
    The alternative to this path is the death of these local 
Tibetan worlds that are constituted and sustained on the basis 
of unique languages, ethics, geographies, temporalities, 
values, architectures, religions, and far more.
    On a visit to the University of Virginia, it is said that 
after a pilgrimage to nearby Monticello, His Holiness expressed 
his strong sense of affinity with Thomas Jefferson, a political 
and intellectual figure, like him, devoted to the 
transformative power of human knowledge, by saying that he felt 
like he himself must be Jefferson's contemporary reincarnation.
    Thus, it may not be inappropriate if I conclude with a 
quote of Thomas Jefferson, ``The important truths that 
knowledge is power, that knowledge is safety, that knowledge is 
happiness.'' The question that contemporary Tibetans might ask 
is, ``Whose knowledge are we talking about, and, consequently, 
whose power, whose safety, and whose happiness? ''
    The Dalai Lama represents, in today's Tibet and for 
Tibetans living in China, in particular, specifically Tibetan 
knowledge, traditional and nontraditional, and the power of 
safety and happiness that such knowledge would bring for 
Tibetans in specifically Tibetan terms.
    The promise that Tibetans could be empowered agents in 
today's world, fully participating in relevant processes, 
policies, and allocations to determine their wellbeing, but 
doing so with their own language, their own religion, their own 
ethics, their own social norms, their own livelihoods; in 
short, their own distinctive way of being in this world.
    To abandon His Holiness, then, is to not only turn their 
back on a Buddhist deity understood to be watching them since 
the dawn of Tibetan time, but, also, to give up this aspiration 
to embody complex understanding and actions rooted in Tibetan 
languages, values, and being, but, also, efficacious and 
knowledgeable in today's increasingly unitary global stage and 
ushering in the transformative power, security, and happiness 
on Tibetan grounds to which Tibetans still dare to aspire.
    Senator Brown. Thank you, Professor Germano.
    Ms. Sangdrol, welcome. Thank you for joining us.

    STATEMENT OF NGAWANG SANGDROL, FORMER TIBETAN POLITICAL 
                            PRISONER

    Ms. Sangdrol.  I would like to first thank you very much 
for inviting me to speak here today. My name is Ngawang 
Sangdrol.
    When I was 13 years old, I joined a peaceful demonstration. 
I shouted ``free Tibet'' and ``long live His Holiness the Dalai 
Lama.'' Just because of these two slogans, they put me in jail 
and tortured me.
    They sentenced me to 23 years and tortured me. But due to 
international pressure on China, especially the U.S. 
congressional support, I was finally released after 11 years.
    Now, I live in a free country, but thousands of Tibetans 
are still suffering in those same prisons today.
    His Holiness the Dalai Lama is very important for all 
Tibetans, especially important for those political prisoners.
    Countless Tibetans have died under China's persecution, but 
those who are still alive, their greatest wish is to see His 
Holiness the Dalai Lama.
    His Holiness the Dalai Lama is our refuge not only in this 
life, but also in future lives. In my own experiences as a 
political prisoner, when I was in solitary confinement for six 
months, the conditions were terrible. For the first 10 days in 
this small, dark cell, I would be given only one meal a day of 
a tiny momo, nothing inside.
    There were rats which terrified me, and it was so cold 
there. The bed was a thin piece of cloth and the blanket was 
very thin.
    But every day, I imagined His Holiness the Dalai Lama, at 
the top of my head. This gave me peace of mind, although 
physical conditions were terrible. This was the only thing that 
gave me some strength to live.
    I feel the Dalai Lama should be allowed to go home. Of 
course, that is not going to solve the whole problem, but this 
would be so powerful and important for the Tibetan people.
    He is not only important for this generation, but for 
generations to come. China tried to extinguish Tibet, but it is 
because of the Dalai Lama that the Tibetans' identity and 
culture is still so strong today.
    Finally, Tibet has many problems, but our biggest problem 
is the political situation. If the political problem is solved, 
all our other problems can be managed.
    Therefore, please do everything you can to bring peace and 
freedom in Tibet.
    I would like also to thank the CECC and Steven Marshall for 
getting the Tibetan political prisoners list. It is so 
important that we do not forget those people.
    Thank you. Thank you so much.
    [The prepared statement of Ms. Sangdrol appears in the 
appendix.]
    Senator Brown. Thank you, Ms. Sangdrol.
    I will start with you and thank you for your very poignant 
testimony.
    With you and others who served time in prison, either--
visiting here or living here, living in the West, and talking 
to people the way you do, and with the Dalai Lama's fairly 
frequent visits to other countries and the visibility he has, 
would you tell us--do you think things are better than they 
were in 1992 when you first went to prison? Do you have more 
hope for improvement for the Tibetan people than you did 20 
years ago?
    Interpreter. I am so sorry. I was supposed to translate, 
but I was----
    Senator Brown.  That's okay. I asked her because of her 
involvement and somebody speaking out, including His Holiness, 
in the West and to media and the place that the criticism that 
the Chinese Government has been subjected to by many of us here 
and others, is she more hopeful than--today, is the situation 
better today than it was in 1992 when you went to prison?
    Ms. Sangdrol.  Yes. It is very hopeful. And you know that 
the situation in Tibet is getting worse and worse day by day. 
But we, like His Holiness the Dalai Lama, what you are saying, 
and the congressional--and the Dalai Lama, we--how can I say--
we express what China is doing is a bad thing is very helpful.
    In the meantime, in Tibet, the situation has not become 
better, but if you are continuing to do something, it is very 
helpful.
    As one example, my own experience, you know they actually 
made my sentence up to 23 years but because of your support, I 
was finally released after 11 years. So that is the one 
example. It is very helpful. So please continue to support us.
    Thank you.
    Senator Brown.  Thank you. One more short question, Ms. 
Sangdrol. How have the views of Tibetans changed toward His 
Holiness in the last 20 years in terms of the hopefulness and 
the strength of character? How do people today in Tibet see His 
Holiness compared to 20 years ago?
    Ms. Sangdrol. Within the last 20 years, the Tibetan people, 
20 years ago, the Tibetan people--can I say in Tibetan, please. 
Sorry. [Mr. Germano translates.]
    Mr. Germano [translating]. Twenty years ago, the Tibetan 
people believed His Holiness would do everything possible on 
behalf of their welfare and hopefully the future. And although 
that hoped for future hasn't come to pass, still, at the end of 
20 years, they continue to have strong faith in him as their 
refuge and as their hope for doing whatever he can possibly do 
to help salvage a stable future for them.
    Ms. Sangdrol.  And so what we see now is how Tibetan people 
love His Holiness the Dalai Lama. Outside of Tibet, we 
celebrate His Holiness the Dalai Lama's birthday. But inside 
Tibet, all the Tibetan people wanted to celebrate His Holiness 
the Dalai Lama's birthday, but China does not allow us to do 
that.
    But Tibetan people take their Wednesdays to celebrate His 
Holiness the Dalai Lama's birthday. You can see that burning 
Sang [incense] to celebrate His Holiness the Dalai Lama.
    Senator Brown. Thank you.
    Mr. Germano, what can the international community and U.S. 
policymakers do to help preserve Tibetan culture?
    Mr. Germano.  Well, I think there are two things. One is 
what you were just talking about, which is continuing to raise 
the profile of challenges Tibetan communities face, which has 
been cited frequently today. Such a spotlight has a positive 
function and I believe Tibetans perceive it as positive.
    But the other thing, I think, that policymakers and 
governments and nonprofits can do is help create a dense 
network of people who are engaged inside China, both Americans 
and Europeans, as well as Tibetans and Chinese who are living 
within China, and try to help support a dense network of 
engagement, of mutual understanding, of shared reciprocal 
partnerships on a variety of issues.
    And I think these two things together really represent the 
greatest hope that we can offer back to Tibetans.
    Senator Brown.  Thank you.
    Arjia Rinpoche, if the Chinese Government seats their 
choice for the next Dalai Lama, how will senior Tibetan 
Buddhist teachers and leaders deal with that?
    Arjia Rinpoche. Of course, this is a very difficult issue. 
For instance, regarding the reincarnation of the 10th Panchen 
Lama--in the beginning, the Chinese Government had some liberal 
officials. They really wanted to include the Dalai Lama's 
preference and ideas. However, because of the political 
upheaval that happened at that time, they changed everything.
    So now the reincarnation of the Dalai Lama is the issue. Of 
course, the Chinese Government has already set up rules and has 
planned for that. But His Holiness is still very healthy and 
very strong. So I guess that is just a good time. He can make 
some kind of right decision, just as he created a setback for 
the political selection.
    Then, also, I am thinking about the dialogue between the 
Chinese Government and the Tibetans-in-exile. The Chinese 
Government has never given a chance to talk to them; they have 
never even recognized the exiled government as a government 
that is the representative of Tibetans.
    So for that, my request is the U.S. Congress or Government 
should support us by pushing them to have dialogue. If they 
still don't give that chance, then the U.S. Government can talk 
to the exiled government. Then there will be pressure on the 
Chinese Government.
    Thank you.
    Senator Brown.  Thank you very much.
    Congressman Walz?
    Representative Walz.  Thank you, Senator. And thank you all 
for the testimony. It is incredibly helpful for us to do our 
job.
    Professor Germano, I had a question. The obvious 
charismatic nature of this current Dalai Lama and the ability 
to capture the attention of the world, I think, through force 
of personality and force of belief, is there any concern that 
the lack of that will diminish the ability to make the case on 
behalf of the Tibetan people?
    Are the cultural ties to the importance of the Dalai Lama 
so strong they will outweigh that personal charismatic nature?
    Mr. Germano.  You mean in terms of him----
    Representative Walz. In succession, when we get succession 
is what I am looking at. I am just wondering how much that 
personal force of will from this Dalai Lama and how that holds 
together--you understand the cultural binds better. Is that a 
concern?
    Mr. Germano. Right. You mean the eventuality of him passing 
away.
    Representative Walz. Yes.
    Mr. Germano.  I think that is a major concern, because not 
only are we looking at the precise nature of his successor, 
but, also, the reality that from birth to the age of 18 or 19, 
he is not going to be really equipped to offer leadership, 
apart from the symbolic kind.
    And so I think that is a great concern and with all these 
other pressures, not only what he emerges like at the age of 20 
when he could take an adult leadership role, but, also, in 
terms of what transpires within those 20 years in such a 
volatile time, when so much will be changing and at stake.
    So I think that this is a very pressing concern. Now, of 
course, the current Dalai Lama has remarkable qualities, but 
there is no question that the Tibetan people, as I was trying 
to talk about in my presentation, invest much more in him than 
simply the fact that he is such a remarkable individual. He has 
come to represent----
    Representative Walz.  Right.
    Mr. Germano [continuing].--something like a lightning rod, 
and that will persist.
    Representative Walz.  Okay. And I don't know if you would 
take on this. I am, just like many of us, starting to come to 
see the biography and the background of Prime Minster Sangay. 
How will that work? I mean, being that this was--if I'm 
understanding this right, the process was the Diaspora was part 
of the election process and we have this young, Western, 
Harvard-educated leader now.
    Maybe for all--maybe Arjia Rinpoche, if you have an intake 
on this on that side, how would that work? Have you thought 
that through yet? I know I'm asking you for somewhat of a 
subjective opinion here. Either one of you.
    Mr. Germano.  Well, I'm much more knowledgeable about 
Tibetan communities inside China than outside, but, of course, 
like everyone, I have followed the process.
    I think the great challenge, which is clear for all of us 
is that when someone like Lobsang Sangay takes over this very 
prominent role, who is he responding to, because on the one 
hand, he has a constituency of Tibetans outside of China, 
particularly those who are in vulnerable situations in India 
and Nepal and Pakistan, as well as kind of the global Tibetan 
Diaspora. And on the other hand, he has a responsibility to the 
preponderance of Tibetans who actually live in China under 
extremely different circumstances. These are very different 
responsibilities and he has to somehow step up to both of them.
    And with His Holiness, given his unique status in the world 
globally, as well as in Tibetan communities, I think that was a 
very different set of challenges. And so I think what we're 
going to be looking at most acutely over the coming years is 
the way he handles those two sides of the equation.
    Representative Walz. How did Tibetans inside Tibet 
familiarize themselves with Lobsang Sangay? How did they know 
about him? How did they know, because he is from India and--
could you answer, Arjia Rinpoche, please?
    Arjia Rinpoche. Yes. Through the Internet--that is the 
communication method that allows more and more people inside 
Tibet to learn about the exile situation, as well as about 
Lobsang Sangay.
    But still I don't think a majority of Tibetans know the 
situation and how important it is. So I agree with his idea and 
I am thinking that the exiled Tibetans have two major missions 
to do. One is taking care of the exiled Tibetans in India, 
Nepal, and the United States and everywhere else. The other 
major mission is to have a dialogue with the Chinese 
Government.
    Of course, that is the role for Lobsang Sangay. It is very 
challenging, I guess. But the exiled government still has to 
kind of follow His Holiness the Dalai Lama's guidance and maybe 
they will have a chance to discuss.
    So the Dalai Lama himself also said he has already resigned 
from the political positions, but before the envoys or 
spokesmen ever meet, he still will want to discuss issues. Of 
course, the Chinese Government, I guess, accepts this.
    Thank you.
    Representative Walz. Very good. Very helpful.
    Ms. Sangdrol, again, I am so sorry for the plight that you 
have endured. I am also thankful that you have chosen to turn 
that situation into a positive for others and fight for 
freedom.
    I just had a question. You mentioned on several of your 
answers the importance of this Commission and the political 
prisoners list.
    I, too, share your belief that this is a very important 
place to get information out and to engage the American public 
and the world on this.
    Does this Commission need to be--can it make an impact? We 
are not all fully seated yet. We are quite a few months into 
the new Congress and we are not joined yet.
    Is it helpful if we get this done for you when this 
Commission is fully functioning?
    Ms. Sangdrol. Yes. What you do is so important for us. It 
is very helpful and I can add into this in Tibetan.
    Interpreter. She said yes. In the past, what you have done 
has had great benefit, as she talked about in her comments, and 
she really appreciates all the strong support that the 
Commission has shown the Tibetan people.
    In particular, she would stress, again, the political 
circumstances are central. Tibetans face many different 
challenges, but unless their political constraints and problems 
are solved, nothing else will help. And so the real key is to 
take care of the political circumstances, to bring attention to 
that, to try to engage the Chinese to support His Holiness in 
his efforts to try to resolve that, and, if that can be 
resolved, everything else will kind of come along for the ride.
    And so she really does believe that you can have an impact 
and she appreciates all the help you have done, and she would 
ask the Commission to do everything they can in the future and 
continue this good work.
    Representative Walz.  Well, thank you for that.
    Thank you, Senator. I yield back.
    Senator Brown.  Thank you, Congressman Walz. I have been 
called to a vote. Secretary Otero will proceed with her 
questions and will chair the rest of the roundtable.
    Secretary Otero, thank you.
    Ms. Otero [presiding]. Thank you, Senator. Thank you 
Congressman.
    Let me just ask some questions--starting with Professor 
Germano.
    In your presentation, you talked about the many 
ramifications of the situation that you described, but 
particularly, you spoke about the issue of Tibetan culture.
    I wonder if you could speak about just how great is the 
current threat to Tibetan culture, to Tibetan identity, in both 
China and the world. To what degree are all those cultural 
underpinnings that are part of Tibet and part of certainly what 
the Dalai Lama refers to so often, how are they under threat? I 
would like to hear more from you on that.
    Mr. Germano.  Sure. My own background is really in Tibetan 
religion. I spent many years in Tibetan monasteries and so 
forth. But what always concerns me is that when people are so 
focused on Tibetan monasteries, monks, and so forth, that they 
don't perceive the real plight of the Tibetan people, which is 
in the broader, cultural arena.
    The first thing, of course, is language. Tibetan language 
is one of the most important languages in the history of the 
world. Now, if you look at the number of speakers--5 or 6 
million speakers--it seems very minimal. But when you look at 
other measures of linguistic weight, such as the heritage of 
classics of world civilization that are only in the Tibetan 
language, the number of journals, periodicals, Web sites, and 
so forth, that are created in an ongoing fashion in the Tibetan 
language, we can see that it belongs to one of the top tiers of 
languages around the world.
    And this vital language is under severe pressure on all 
fronts, both inside China, as well as outside China. Inside 
China, of course, it's the Chinese language. Outside China, 
it's Hindi, Nepali, the English language, and so forth.
    Keep in mind that Tibetan is a family of many different 
languages that are as divergent as French and Portuguese and 
Spanish from each other, and yet we all call all of them a 
single language, the Tibetan language. And so it is not just 
about preserving that kind of common standard that is beginning 
to emerge across the plateau, but also preserving all those 
specific Tibetan languages in Amdo and Kham and elsewhere that 
are particular to people's identity and wellbeing and so forth.
    So we must focus on the problem language, especially 
Tibetan language as a medium of education. If people can't use 
language within governmental processes, commercial processes, 
and so forth within the broader social arena, then they are not 
going to want their children to go through an educational 
process that is based upon Tibetan.
    If the Tibetan immersive educational process isn't of high 
quality, again, they are not going to want it. Yet education is 
very crucial for the preservation of Tibetan language, and 
Tibetan language is crucial for Tibetan culture on kind of 
multiple fronts.
    Also, when we look at issues of culture, we have different 
livelihoods--agrarian, nomadic, urban. Tibetans traditionally 
are mostly rural communities, agrarian and nomadic in 
character. And so we want those communities, to the degree that 
they want to continue traditional patterns, to be able to do so 
rather than to be pressured by external forces to shift those 
livelihoods. So I think that is another challenge.
    A third challenge is so much of Tibetan culture is local in 
character. It is specific to locality. For example, in Lhasa, 
prior to 1959, people could identify what block you came from 
based upon your speech patterns. People can tell what village 
you come from, even today, in much of Tibet.
    So the cultural patterns--linguistic, religious, clothing, 
architecture, and so forth--are very local in character and a 
lot of that knowledge of people's history and identity and kind 
of values is embedded in oral traditions.
    I think one of the kind of threats now is with the global 
valorization of written traditions, and then, in particular, 
written traditions in Chinese or Hindi or English and so forth, 
that all this distinctive Tibetan identity bound up with the 
oral information, their old knowledge, memories, their ways of 
doing things, artists and crafts and so forth, is under great 
threat.
    So that's just kind of some general background issues.
    Ms. Otero.  Thank you. Thank you, Professor.
    Arjia Rinpoche, one of the areas that you have addressed as 
certainly one of the most important freedoms that all human 
beings should have, religious freedom--to be able to worship as 
one wishes, and that clearly applies across the globe--I wonder 
if you would have any recommendations, especially to U.S. 
policymakers, on how we may support religious freedom in Tibet, 
again, in the context of religious freedom as a right that 
should be available to everyone.
    Arjia Rinpoche. Yes. That is a very important and 
complicated situation there. If you go to a Tibetan region, 
then you will see lots of monasteries open and lots of monks 
practicing and saying prayers or wherever.
    But, actually, the inside and the outside are very 
different. They have a saying in Chinese. They say: ``Tighten 
inside, but loosen outside.'' So that means if you are a 
tourist or somebody from the outside, you can't tell what is 
inside. It looks like they have lots of freedom there, 
especially compared to the time of the Cultural Revolution, et 
cetera. Of course, there is a look of freedom. But inside it is 
very tight. For instance, every monastery has a Religious 
Department controlling them. We have to report to the Religious 
Department so often about what's happened and what's going to 
be.
    Then if they give a permit, you can do what you have asked 
for. If they don't give a permit, you can't do it. For 
instance, foreigners visit the monasteries and pass to the 
monks the Dalai Lama's pictures or whatever. But soon after 
they have received that item and after the tourists have left, 
then the secret agents will come and ask, ``What is your 
relationship;'' ``What did this guy say,'' and so on.
    So that is why the inside policy is still very, very tight. 
Now, I'm in exile already 13 years. So when I hear that the 
situation is getting worse in the monasteries, my concern or 
recommendation is not really a clear one. But I guess if access 
to the media opened up so it can go there and freely report or 
find information from inside Tibet, it would be a very helpful 
thing.
    Then, also, there has to be more dialogue with the 
government; it has to be more liberal, and the monasteries have 
to have more chances to communicate to other societies or other 
countries. Now, all of them are closed up. If they can 
establish some kind of communication, then the relationship 
maybe will be a little better and helpful.
    Thank you.
    Ms. Otero.  Thank you. Thank you very much.
    And then let me just ask one question of Ms. Sangdrol. I am 
certainly very appreciative of your testimony. And as other 
members of the Commission have said, we certainly not only 
recognize the many trials that you endured as a prisoner, but, 
also, just your presence here demonstrates your continued 
courage and effort.
    I would like to ask you--there are protesters in Tibet; 
they hope that their actions may improve things. Do you think 
that that is the case? Do you think that they will continue 
peaceful protests, or will they try other approaches, maybe 
even resort to violence at some point in order to be able to 
make a difference?
    Ms. Sangdrol. I believe in the peaceful option for our 
struggle for truth. And, also, I think in Tibet so far, we 
always are doing peaceful actions, what you said now. And I and 
Tibetans inside Tibet, we still believe like that and we 
never--I know we are doing the peaceful demonstrations, but 
China is using the weapons to crack down but Tibetan people 
never give up.
    However, China cracked down and tortured us, we never gave 
up, the struggle is continuing. And for the future, if China is 
not listening to our--how can I say--ignoring what Tibetan 
people's mind might be thinking, and I don't know what will 
happen.
    But so far, we believe that peaceful is a very powerful 
way, because I believe truth has great--how do you say drebu--
great result.
    Ms. Otero. Thank you. Thank you very much. Clearly, we will 
continue addressing these human rights issues.
    Ms. Sangdrol.  Thank you. We will never give up continuing 
to struggle for our freedom, and, also, we need your help. 
Please continue to support us.
    Ms. Otero.  Thank you. Thank you. Any other questions?
    [No response.]
    Ms. Otero.  Well, I think we have concluded the questions. 
And so I want to thank everyone on the panel for your 
presentations and for your presence here and for addressing the 
questions of this Commission.
    Thank you very much.
    [Whereupon, at 10:58 a.m. the roundtable was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements 

                              ----------                              


               Prepared Statement of Bhuchung K. Tsering

                             JULY 13, 2011

    I would like to address this issue by looking at the impact of the 
recent devolution of the authority of the Dalai Lama to an elected 
Tibetan leadership on the future of Tibet.
    To begin with, why did His Holiness divest himself of his 
authority? I see there are three main reasons.
    First, this is part of his long held aspiration to democratize the 
Tibetan community and to develop a system of democratic governance in 
the Tibetan polity. His Holiness has said that since his childhood, he 
had developed an admiration for democratic values.
    Secondly, through the system of rule by elected leadership, His 
Holiness is enabling the Tibetan struggle to sustain itself even if 
there is no resolution to the Tibetan issue in the foreseeable future. 
He believes that the issue to be addressed 
concerns the six million Tibetan people and not the person of the Dalai 
Lama.
    Thirdly, His Holiness has said that it looked hypocritical for him 
to be combining spiritual and political authority in himself when he 
was calling others to separate religion and politics.
    What are the implications of the Dalai Lama's decision to devolve 
authority? On the broader issue of the Dalai Lama's historical bond 
with the Tibetan people, particularly the majority of them who are in 
Tibet, I do not foresee any changes in the future. He will continue to 
be revered by the Tibetan people and also regarded by them as their 
``source of refuge for this life and the next.''
    The change is and will have an impact on the Tibetan political 
movement in exile. First of all, this will be a challenge to Dr. 
Lobsang Sangay, the newly elected Kalon Tripa, the Chairman of the 
Tibetan Cabinet, who will be assuming office in August. On the 
positive, this Kalon Tripa will be more powerful than anyone so far. 
But the changes also mean that the new Kalon Tripa will have to assume 
more responsibility, be more decisive and not to be seen pushing issues 
back into the Dalai Lama's hands. He will also have to mold himself to 
be the Tibetan political leader, separate from the Dalai Lama. Also the 
Tibetan administrative system in exile, including the various offices 
connected with the Dalai Lama, will have to undergo the necessary 
repositioning under such a development.
    At the people level, the Tibetan people in exile will also have to 
undergo a paradigm shift in their thinking and adapt to this new 
reality. They will have to learn to see the elected leadership as their 
political leaders.
    Some of the implications of the Dalai Lama's decision on the 
Chinese leadership's policy are:
    It challenges the Chinese authorities' position on the dialogue 
process. To date, even though the nine rounds of talks between envoys 
of the Dalai Lama and the Chinese leadership have touched on issues 
connected with the rights of the Tibetan people, the official Chinese 
position is that the talks are not only with the private envoys of His 
Holiness the Dalai Lama and are about his return.
    There is a situation where the directly elected leader of the 
Tibetan people take the helm of the direction of the movement, there 
will be more voices that are there which may not be there currently 
which will be having an impact on the future policies of the Tibetan 
administration if there is no solution during that time.
    It thwarts China's plans for the future Dalai Lamas. Despite their 
position that the Dalai Lama should stay away from politics, the 
Chinese authorities have been putting a long-term plan into action with 
the intention of controlling the process of the reincarnation of the 
next Dalai Lama to serve their political ends. Accordingly they have 
formulated regulations saying that only the Communist Party can anoint 
the highest Tibetan religious leader (not understanding the obvious 
contradiction), or in recent days even commanding that the Dalai Lama 
should be reincarnated irrespective of what the present incarnation is 
saying. Therefore, this decision of the Dalai Lama to break away from 
the historical role of the institution has effectively thwarted any 
such Chinese plans.
    It bursts the myth about the return of the ``Old Society'': One of 
the scare tactics that the Chinese authorities continue to use among 
Tibetans in Tibet to maintain control is to project the period during 
independent Tibet (referred to as the ``old society'' as opposed to 
life under China, which is the ``new society'') as horrendous, and to 
say that the Dalai Lama's aim is to restore the ``old society.'' The 
Dalai Lama's decision including the removal of the name of the 
government of Ganden Phodrang (that ruled Tibet) from the present 
Administration in exile takes away the opportunity for the Chinese to 
continue resorting to this myth.
    There is one interesting impact that the Dalai Lama's devolution of 
his authority would have on his relationship with the governments 
throughout the world. Internationally, governments should now find it 
easier to have a simple, transparent and clear position towards the 
Dalai Lama than in the past. To date, quite a few governments have 
tried to overcome the perception of being seen as dealing with Dalai 
Lama the political leader by formally regarding him as a spiritual 
leader only. Now that the Dalai Lama has divested himself of his 
political position, unless politics kick in governments should find it 
easier to have a formal relationship with him as an eminent religious 
leader.

                                 S6621_
                                 

                 Prepared Statement of Ngawang Sangdrol

                             JULY 13, 2011

    I would like to first thank you very much for inviting me to speak 
here today.
    1. My name is Ngawang Sangdrol. When I was 13 years old I joined a 
peaceful demonstration. I shouted ``free Tibet'' and ``long live the 
Dalai Lama.'' Just because of these two slogans, they put me in jail 
and tortured me. They sentenced me to 23 years but due to international 
pressure, especially US Congressional support, I was released after 11 
years. Now I live in a free country. But thousands of Tibetans are 
still suffering in those same prisons today.
    2. His Holiness the Dalai Lama is very important for all Tibetans, 
but especially important for those political prisoners. Countless 
Tibetans have died under China's persecution but those who are still 
alive, their greatest wish is to see His Holiness. His Holiness is our 
refuge not only in this life but also in future lives.
    3. In my own experience as a political prisoner, when I was in 
solitary confinement for six months, the conditions were terrible. For 
the first ten days in this small dark cell I would be given only one 
meal a day of a tiny dumpling without any meat. There were rats, which 
terrified me, and it was so cold. The bed was a thin piece of cloth and 
the blanket was very thin. But every day I imagined His Holiness at the 
top of my head. This gave me peace of mind, although physical 
conditions were terrible. This was the only thing that gave me some 
strength to live.
    4. I feel the Dalai Lama should be allowed to go home. Of course, 
that is not going to solve the whole problem. But this is something 
that would be so powerful and important for the Tibetan people. He is 
not only important for this generation, but for generations to come. 
China tried to extinguish Tibet. But it is because of the Dalai Lama 
that the Tibetan spirit and culture is still so strong today.
    5. Finally, Tibet has many problems, but our biggest problem is the 
political situation. If the political problem is solved, all our other 
problems can be managed. Therefore, please do everything you can to 
bring peace and freedom in Tibet.
    Thank you.
                                 S6621_
                                 

  Prepared Statement of Hon. Sherrod Brown, a U.S. Senator From Ohio; 
        Cochairman, Congressional-Executive Commission on China

                             JULY 13, 2011

    There are a number of Commission vacancies and I hope that they 
will be filled soon.
    In the meantime, I want to assure everyone who is interested in the 
Commission's work that it will continue and that the outstanding staff 
has continued its important mission.
    Today's roundtable is on ``The Dalai Lama: What He Means for 
Tibetans Today.''
    In many ways, this roundtable can mean what he means for all of us 
who care about basic human rights for everyone.
    Thousands of people, including many Tibetans, gathered in 
Washington, DC this past week to hear His Holiness the Dalai Lama 
perform a sacred ritual and share his teachings on world peace.
    The world knows His Holiness as a Nobel Peace Prize winner, a 
symbol of compassion, and guardian of the Tibetan people.
    Since the 1950s, he has made peaceful overtures to the Chinese 
government. As a result he was forced into exile into the Indian 
Himalayans.
    The president met with the Dalai Lama last time and I hope he will 
meet with him again this time.
    For decades the Dalai Lama led Tibet's peaceful campaign for 
legitimate Tibetan political and cultural rights through prayer and 
speech, traveling across the world, even as foreign governments worried 
about Chinese reprisal for welcoming their so-called ``separatist.''
    But in recent months he has reduced his political role so he can 
focus on spiritual matters.
    Regardless of his role, His Holiness the Dalai Lama remains the 
best hope for restoring stability to Tibet and guaranteeing the genuine 
autonomy that is the right of Tibetans.
    And the genuine autonomy that is the right of other ethnic minority 
groups in China.
    Tibetans in China continue to suffer from human rights abuses and 
restrictions on their constitutional and universal rights to the 
freedom of religion, expression, and association.
    These abuses are deliberate acts of the Chinese State.
    The attack on Tibetan language, culture, religion, and rich history 
is intentional and political. It is harsh and brutal.
    Just as they've done with the Uyghur people, the Chinese government 
has attacked every aspect of life and culture of Tibetans.
    And just as they've done with leading critics of government 
policies like Rebiya Kadeer, the government has done everything it can 
to discredit and subvert the Dalai Lama.
    Last month's Commission Roundtable heard from Chinese legal experts 
who discussed how the Communist Chinese government sees lawyers as a 
threat to stability to the regime.
    The Roundtable briefly touched on how in the United States--and 
other democratic nations--lawyers are in many ways the foundation of 
stability of the state.
    In repressing defenders of rights, China suppresses the diversity 
of cultures.
    The Beijing government treats legitimate expression of cultural 
diversity as a threat to sovereignty. In the United States our very 
motto is ``E Pluribus Unum'', out of many there is one--that our 
strength as one nation comes from the diversity of its people.
    Yet respect and recognition of fundamental rights is essential for 
the preservation and celebration of China's minority cultures.
    The situation in Tibet remains abysmal since the Chinese 
government's violent crackdown on largely peaceful protests that began 
in March 2008.
    According to the Commission's own Political Prisoner Database, 
hundreds of political prisoners remain imprisoned.
    Far from seeing the Dalai Lama as an indispensable negotiating 
partner, Chinese officials continue their attempts to discredit him.
    Negotiations between the two sides have stalled, with the longest 
break since formal dialogue resumed in 2002.
    At this critical moment, we have gathered an expert group of 
panelists to discuss what the Dalai Lama means to Tibetans--and to our 
world.
                                 S6621_
                                 

 Prepared Statement of Maria Otero, Under Secretary for Democracy and 
    Global Affairs and Special Coordinator for Tibetan Issues, U.S. 
  Department of State; Member, Congressional-Executive Commission on 
                                 China

                             JULY 13, 2011

    Thank you, Senator Brown, other Commission Members and staff for 
convening this roundtable. It's my pleasure to be able to participate 
today for the first time as a Commissioner and to make brief remarks on 
the Dalai Lama as the Special Coordinator for Tibetan Issues.
    I have had the honor of meeting several times with the Dalai Lama 
as an internationally recognized religious leader and Nobel Laureate. I 
have also had an opportunity to speak with Tibetan Buddhists in remote 
settlements in India and with new arrivals and long staying Tibetan 
refugees in Nepal. I have learned that for many of them, the Dalai Lama 
is the earthly manifestation of the living Buddha. To young Tibetans, I 
have seen that the Dalai Lama is a positive example of how to make the 
world a better place, and is a source of wisdom and compassion in their 
personal lives.
    The Dalai Lama's views are widely reflected within Tibetan society, 
and command the respect of the vast majority of Tibetans. The U.S. 
government believes that the Dalai Lama can be a constructive partner 
for China, particularly as it deals with the challenge of resolving 
continuing tensions in Tibetan areas. His consistent advocacy of non-
violence is an important factor in reaching an eventual lasting 
solution. China's engagement with the Dalai Lama, or his 
representatives, to resolve problems facing Tibetans is in the 
interests of the Chinese government and the Tibetan people. We believe 
failure to address these problems and reexamine existing, 
counterproductive policies will exacerbate already existing tensions 
that could, in turn, undermine China's efforts to maintain its current 
social and economic development.
    The Administration's goals on Tibetan issues are twofold. First, it 
is to promote a substantive, results oriented dialogue between the 
Chinese Government and the Dalai Lama or his representatives. Second, 
it is to help sustain Tibet's unique religious, linguistic, and 
cultural heritages. The Administration at all levels--from the 
President, Secretary, Assistant Secretaries, to myself--has urged the 
Chinese Government to engage in a dialogue with the representatives of 
the Dalai Lama. We remind the Chinese government that the vast majority 
of Tibetans advocate non-violent solutions to Tibetan issues and 
genuine autonomy--not independence or 
sovereignty--in order to preserve Tibet's unique culture, religion and 
its fragile environment. Regrettably, the Chinese government has not 
engaged in a substantive dialogue with the Tibetans since January 2010.
    I want to take this opportunity to briefly mention some of our 
concerns and ongoing activities. We are extremely concerned about the 
deteriorating human rights situation in China and in particular in the 
Tibet Autonomous Region and other ethnic Tibetan areas in neighboring 
provinces. Recent regulations restricting Tibetan language education, 
strict controls over the practice of Tibetan Buddhism, the arrests of 
prominent non-political Tibetans, and the heavy security presence 
reflect the difficult human rights situation there today. The forcible 
removal of monks from Kirti Monastery is also a cause for deep concern.
    Despite many challenges, we are committed to continuing our long-
standing support for non-governmental organizations that work in ethnic 
Tibetan areas and 
assist Tibetan refugees in South Asia.  Both the State Department and 
the U.S. Agency for International Development support cultural and 
linguistic preservation, sustainable development and environmental 
preservation in Tibet and Tibetan majority areas, as well as Tibetan 
refugee communities in other countries, through 
numerous programs.  In addition, the State Department's Bureau of 
Population, Refugees, and Migration continues its long-standing support 
for Tibetan refugees through ongoing support to non-governmental 
organizations as well as the United Nations High Commissioner for 
Refugees. In fiscal year 2010, $3.5 million was provided to support 
reception services, education, healthcare, and water and sanitation for 
Tibetan refugees in South Asia, including new arrivals from China.
    At the end of this month, the U.S. Agency for International 
Development's India Mission will issue an award for a new $2 million, 
two-year program to support Tibetan settlements in India, Nepal, and 
Bhutan. The new program will support the development of organic 
agriculture for selected Tibetan settlements in India, Nepal, and 
Bhutan; and provide vocational training to Tibetan youth remaining in 
the 
settlements. USAID anticipates the program will result in increased 
economic opportunities which will encourage youth to remain in the 
settlements, strengthen community ties, and preserve cultural and 
linguistic traditions. Strengthening Tibetan communities and preserving 
their extraordinary cultural and religious traditions have been at the 
center of the Dalai Lama's work.
    The Dalai Lama celebrated his 76th birthday last week in 
Washington, joined by thousands of Tibetans. While he is still vigorous 
and healthy, it is my great hope that Chinese leaders will seize this 
opportunity to pursue a substantive dialogue to resolve remaining 
differences and provide the next generation of Tibetans and Chinese 
with peace, prosperity, and genuine stability.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
